IN THE SUPREME COURT OF THE UNITED STATES

OMAR CEBRERO,
Petitioner,

Vv.

ROSEMARY NDOH,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Motion for Leave to Proceed Jn Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Omar Cebrero, asks for leave to file a Petition for Writ of Certiorari to the U.S. Court
of Appeals for the Ninth Circuit without pre-payment of fees or costs and to proceed
in forma pauperis. The Petitioner was represented by counsel appointed pursuant to
18 U.S.C. ยง 3006A on appeal to the Court of Appeals for the Ninth Circuit.

 
    

September 8, 2021

  

Office of Kristi
. Box 141
rdiff, CA 92007
Telephone: (858) 215-3520
Counsel for Mr. Cebrero

  
